October 8, 2020
Via Electronic Filing and Regular Mail
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

No. 20-177, Ally Financial, Inc. v. Alberta Haskins, et al.

Dear Mr. Harris:
I hereby seek an extension of the time to file a response to the petition for certiorari in
the above titled case. The response is currently due on October 29, 2020. For the following
reasons, I request a 30-day extension to and including November 30, 2020.
I will have principal responsibility for preparing the brief in opposition to the petition.
Because preparation for my oral argument before this Court yesterday took up considerable
time in the last month, my colleagues and I will require additional time to prepare an adequate
response to the petition. Furthermore, we have several upcoming deadlines and obligations that
will prevent us from devoting adequate time to the response absent an extension. These include
a reply brief due in the Second Circuit on October 9 (in Pena v. British Airways); an opening
brief and appendix due in the Second Circuit on October 13 (in Hromowyk v. FCA US LLC); a
Rule 23(f) petition due in the Sixth Circuit on October 14 (in Kondash v. Kia); an amicus brief
due in this Court on October 20 (in Shein II); an oral argument in the Fourth Circuit on October
27 (in Alig v. Quicken Loans); an oral argument in the Eleventh Circuit on October 28 (in Lucoff
v. Navient); an answering brief due in the Ninth Circuit on November 2 (in Peck v. Swift
Transportation and Mares v. Swift Transportation). A 30-day extension will allow us to balance
these other responsibilities with our obligations in this case.
Thank you for your attention to this matter.
Sincerely,

cc: Counsel of Record

Gupta Wessler PLLC
1900 L Street, NW, Suite 312, Washington, DC 20036
P 202 888 1741 F 202 888 7792
guptawessler.com

Deepak Gupta

